No. 19-

 

 

IN THE
Supreme Court of the United States

BRADLEY BEERS,
Petitioner,

Vv.

WILLIAM P. BarR, ATTORNEY GENERAL OF THE UNITED
STATES OF AMERICA, et al.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,030 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 9, 2020.

Colin Casey i

Wilson-Epes Printing Co., Inc.
